U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brunson v. United States, No. 20-6161

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 26,
2020, and placed on the docket on October 29, 2020. The government’s response is now due,
after one extension, on December 30, 2020. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including January 4, 2021, within which to
file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6161
BRUNSON, JOEY LAMOND
USA

DAVID BRUCE BETTS
276 MANNERS CIR
SUITE 201
COLUMBUS, SC 29212

